OFFICE OF INSPECTOR GENERAL
FOR THE
RAILROAD RETIREMENT BOARD

                    SEMIANNUAL
                    REPORT TO THE
                    CONGRESS




   OCTOBER 1, 2011▪ MARCH 31, 2012
                 UNITED STATES RAILROAD RETIREMENT BOARD

                            OFFICE OF INSPECTOR GENERAL


                                      April 30, 2012

The Honorable Michael S. Schwartz, Chairman
Railroad Retirement Board
844 North Rush Street
Chicago, Illinois 60611-2092

Dear Mr. Schwartz:

I am pleased to submit our Semiannual Report to the Congress. This report
provides a descriptive summary of our activities and accomplishments during the
period of October 1, 2011 through March 31, 2012. This report is submitted in
accordance with Section 5 of the Inspector General Act of 1978, as amended.
The Act requires that you transmit this report, along with any comments you may
wish to make, to the appropriate Congressional committees and subcommittees
within 30 days.

During this reporting period, we completed our audit of the RRB’s fiscal
year 2011 financial statements, issuing an unqualified opinion. In addition we:

   •   published our “Letter to Management” detailing matters related to internal
       control identified during the financial statement audit;
   •   prepared our statement on Management and Performance Challenges
       Facing the Railroad Retirement Board;
   •   published the results of our annual evaluation of the agency’s information
       security program; and
   •   completed and published two additional audit reports and one evaluation.

Our criminal investigators achieved 15 arrests, 43 criminal convictions,
69 indictments and informations, 13 civil judgments, and more than $62.4 million
in financial accomplishments resulting from OI’s investigative work, including joint
investigations.

The Office of Inspector General sincerely appreciates the ongoing assistance
extended to our staff during the performance of their audits and investigations.
We look forward to a continued cooperative relationship.

                                                 Sincerely,

                                                 Original Signed by

                                                 Martin J. Dickman
                                                 Inspector General
844 N RUSH STREET CHICAGO IL 60611-2092                              Printed on recycled paper
                                                                                      TABLE OF CONTENTS




INTRODUCTION ............................................................................................................. 1
   Railroad Retirement Board .......................................................................................... 1
   Board Members ........................................................................................................... 1
   Office of Inspector General .......................................................................................... 2
EXECUTIVE SUMMARY ................................................................................................ 3
   Office of Audit .............................................................................................................. 3
   Office of Investigations ................................................................................................ 4
OCTOBER 1, 2011 – MARCH 31, 2012 ACCOMPLISHMENTS .................................... 5
   Office of Audit .............................................................................................................. 5
      Opinion on the Financial Statements ....................................................................... 5
      Report on Internal Control ........................................................................................ 6
      Report on Compliance with Laws and Regulations .................................................. 6
      Material Weaknesses and Significant Deficiency ..................................................... 6
      Management and Performance Challenges Facing the Railroad Retirement Board 7
      Fiscal Year 2011 Financial Statement Audit Letter to Management......................... 8
      Fiscal Year 2011 Evaluation of Information Security at the Railroad Retirement
      Board ....................................................................................................................... 9
      Evaluation of the Railroad Retirement Board’s Oversight of Railroad Employer
      Compliance ............................................................................................................ 10
      Audit of the Railroad Retirement Board’s Compliance with the Improper Payments
      Elimination and Recovery Act ................................................................................ 12
      Audit of the Application Express System’s Date of Death Reliability ...................... 13
      Management Decisions and Implementation ......................................................... 15
   Office of Investigations .............................................................................................. 16
      Current Caseload ................................................................................................... 16
      Current Caseload By Case Type............................................................................ 17
      Investigative Accomplishments .............................................................................. 18
   Representative Investigations .................................................................................... 19
      Disability Investigations .......................................................................................... 19
      Unemployment-Sickness Insurance Investigations ................................................ 21
  TABLE OF CONTENTS




      Retirement-Survivor Benefits and Representative Payee Investigations ............... 23
      Railroad Medicare Investigations ........................................................................... 25
      Civil Enforcement Results ...................................................................................... 27
   Hotline Contacts ........................................................................................................ 28
OTHER OVERSIGHT ACTIVITIES ............................................................................... 29
   American Recovery and Reinvestment Act of 2009................................................... 29
   Occupational Disability Program ................................................................................ 29
OUTREACH ACTIVITIES ............................................................................................. 30
OPERATIONAL ISSUES .............................................................................................. 32
   National Railroad Investment Trust............................................................................ 32
LEGISLATIVE & REGULATORY REVIEW .................................................................. 33
APPENDICES ............................................................................................................... 34
   Appendix A – Office of Inspector General Reports and Other Publicly Available
   Papers Issued ............................................................................................................ 35
   Appendix B – Audit Reports with Questioned Costs or with Recommendations That
   Funds be Put to Better Use ....................................................................................... 36
   Appendix C – Report on Receivables, Waivers, and Recoveries .............................. 37
   Appendix D – Significant Matters ............................................................................... 39
   Appendix E – Peer Reviews ...................................................................................... 41
   Appendix F – Reports Prepared by Management ...................................................... 42
   Appendix G – Reporting Requirements ..................................................................... 49
   Appendix H – Acronyms ............................................................................................ 50
   Appendix I – Legal References .................................................................................. 51
                              Office of Inspector General for the
                                  Railroad Retirement Board

      INTRODUCTION
      Railroad Retirement Board
The Railroad Retirement Board (RRB) is an independent agency in the executive
branch of the Federal government. The RRB administers comprehensive disability,
unemployment-sickness insurance, and retirement-survivor benefit programs for the
nation's railroad workers and their families. These programs are codified under the
Railroad Retirement Act (RRA) and the Railroad Unemployment Insurance Act (RUIA),
respectively. The RRB’s central mission is to pay accurate and timely RRA and RUIA
benefits.

During fiscal year (FY) 2011, the RRB paid approximately $11 billion in retirement and
survivor benefits to roughly 578,000 beneficiaries. The RRB also paid roughly
$90.9 million in net unemployment and sickness insurance benefits to almost 11,000
unemployment insurance beneficiaries and 18,000 sickness insurance beneficiaries.

The RRB also has administrative responsibilities for certain benefit payments under the
Social Security Act, including the administration of Medicare benefits for qualifying
railroad workers and dependents. Pursuant to statutory authority, the RRB, in
consultation with the Centers for Medicare and Medicaid Services, awards and monitors
the single nationwide Medicare Part B Services contract. During FY 2011, the Railroad
Medicare contractor paid approximately $868 million in Part B medical insurance
benefits on behalf of roughly 453,000 Railroad Medicare beneficiaries.

      Board Members

The Board consists of three members who are appointed, with the advice and consent
of the Senate, by the President of the United States. One Board member is appointed
upon the recommendation of railroad employers, another member is appointed upon the
recommendation of railroad labor organizations, and the third, who is the Chairman, is
appointed to represent the public’s interest. Board Members’ terms are five years in
length and expire in staggered years.



Semiannual Report to the Congress                                                  1

October 1, 2011 ▪ March 31, 2012
                              Office of Inspector General for the
                                  Railroad Retirement Board

      Office of Inspector General

The Railroad Retirement Solvency Act of 1983 amended the RRA to provide for an
Office of Inspector General (OIG) for the RRB. The 1988 amendments to the Inspector
General Act added the RRB to the list of covered agencies.

The Inspector General is a Presidential Appointee, with Senate confirmation, who
serves as an independent and objective voice to both the RRB Board Members and the
Congress. It is the Inspector General’s responsibility to promote economy, efficiency,
and effectiveness in the RRB’s programs and operations. To that end, the OIG conducts
audits/evaluations, management reviews, and inspections of the RRB’s programs and
operations. As a product of its efforts, the OIG offers recommendations for agency
improvement to RRB management. The OIG also identifies and investigates cases of
waste, fraud, and abuse in the RRB’s programs and operations. The OIG works closely
with Federal prosecutors and makes the appropriate referrals for criminal prosecution,
civil prosecution, monetary recovery, or administrative sanctions.

The OIG has approximately 50 employees assigned to three operational components:
the immediate Office of the Inspector General, the Office of Audit, and the Office of
Investigations. The OIG conducts operations from several locations: the RRB
headquarters in Chicago, Illinois; an investigative field office in Philadelphia,
Pennsylvania; and domicile investigative offices in Arlington, Virginia; Houston, Texas;
Miami, Florida; New York, New York; and San Diego, California. These domicile offices
provide increased investigative presence and aide in the effective and efficient
coordination of joint investigations with other Inspector General offices and law
enforcement agencies.




                                                  Semiannual Report to the Congress
 2
                                                     October 1, 2011 ▪ March 31, 2012
                               Office of Inspector General for the
                                   Railroad Retirement Board

       EXECUTIVE SUMMARY
       Office of Audit

The Office of Audit (OA) conducts financial, performance, and compliance audits and
evaluations/inspections of the RRB’s programs and operations. During this reporting
period, the OA:

   •   completed its annual audit of the RRB's comparative financial statements for the
       fiscal years ended September 30, 2011 and 2010 along with the related reports
       on internal control and compliance;
   •   prepared the Inspector General's statement of Management and Performance
       Challenges Facing the Railroad Retirement Board;
   •   published the results of their annual evaluation of the agency’s information
       security program;
   •   evaluated the agency’s oversight of railroad employer compliance;
   •   published a "Letter to Management" detailing matters related to internal control
       identified during the financial statement audit;
   •   audited the agency’s compliance with the Improper Payments Elimination and
       Recovery Act of 2010; and
   •   completed its audit to assess the reliability of dates of death residing within the
       agency’s Application Express System.

OA’s activities, during this reporting period, are discussed in further details on Pages 5
through 14 of this report. All publically available reports are available on our website
at www.rrb.gov/oig.




Semiannual Report to the Congress                                                      3

October 1, 2011 ▪ March 31, 2012
                                   Office of Inspector General for the
                                       Railroad Retirement Board

            Office of Investigations
The Office of Investigations (OI) focuses its efforts on identifying, investigating, and
presenting RRB benefit fraud cases for prosecution. OI conducts investigations
throughout the United States relating to:

        •   the fraudulent receipt of RRB disability, unemployment-sickness, and
            retirement-survivor benefits;
        •   Railroad Medicare fraud;
        •   false reporting by railroad employers; and
        •   criminal violations and misconduct by RRB personnel.

Investigative efforts can result in criminal convictions; civil judgments and penalties;
administrative recovery of program benefit funds; and/or administrative sanctions.

From October 1, 2011 through March 31, 2012, OI achieved:

        •   15 arrests;
        •   69 indictments and informations;
        •   43 convictions;
        •   13 civil judgments;
        •   50 referrals to the Department of Justice; and
        •   more than $62.4 million 1 in financial accomplishments.

Defendants, in the aggregate, were sentenced to more than 82 years of jail, 95 years of
probation, and 490 hours of community service. Additional details regarding OI’s
activities are discussed on Pages 16 through 27.

Details regarding OI’s ongoing joint investigation into a brazen occupational disability
fraud scheme are discussed on Page 19.



1
  The total amount of financial accomplishments reflect fraud amounts related to programs administered
exclusively by the RRB and fraud amounts from other Federal programs such as Medicare or Social Security
which were included in the disposition resulting from the investigation.

                                                           Semiannual Report to the Congress
    4
                                                               October 1, 2011 ▪ March 31, 2012
                              Office of Inspector General for the
                                  Railroad Retirement Board

      OCTOBER 1, 2011 – MARCH 31, 2012
      ACCOMPLISHMENTS
      Office of Audit
Congress established the OIG to provide independent oversight of the RRB. Within the
OIG, the mission of OA is to promote economy, efficiency, and effectiveness in the
administration of the RRB’s programs and operations; and to detect and prevent fraud,
waste, and abuse. Through the Inspector General, OA keeps Board Members and the
Congress informed of current and potential problems and deficiencies in the RRB’s
operations. OA also tracks the agency’s progress towards corrective action.

Brief summaries of all audits completed during this semiannual reporting period follow.

      Opinion on the Financial Statements

During this reporting period, OA completed its annual audit of the RRB’s comparative
financial statements for the fiscal years ended September 30, 2011 and 2010. The OIG
offered an unqualified opinion on the financial statements, concluding that the financial
statements, including accompanying notes, presented fairly, in all material respects, in
conformity with U.S. generally accepted accounting principles, the financial position of
the RRB, its consolidated net cost of operations and changes in net position, and
combined budgetary resources as of and for the fiscal years ended September 30, 2011
and 2010 and the financial condition of the Railroad Retirement program as of
January 1, 2011, 2010, 2009, 2008, and 2007 and changes in the financial condition of
the program for the year ended December 31, 2010.




Semiannual Report to the Congress                                                   5

October 1, 2011 ▪ March 31, 2012
                                 Office of Inspector General for the
                                     Railroad Retirement Board

         Report on Internal Control

In planning and performing the audit of the agency’s financial statements, OA
considered the RRB’s internal control over financial reporting and compliance. OA did
this to determine its procedures for auditing the financial statements and to comply with
Office of Management and Budget (OMB) audit guidance, and not to express an opinion
on internal control. OA reported the following:

     •   With respect to previously reported control deficiencies, the RRB has made
         progress strengthening its information security program but this effort is not yet
         complete and remains an area of material weakness.
     •   The previously reported material weakness for non-integrated subsystems
         continues to exist because agency efforts are not yet sufficient.

         Report on Compliance with Laws and Regulations

OA’s audit of the RRB’s financial statements included tests of compliance with
selected provisions of laws and regulations, including laws governing the use of
budget authority, and other laws and regulations that could have a direct and material
impact on the RRB’s basic financial statements.

OA’s tests of compliance with selected provisions of laws and regulations disclosed
no instances of non-compliance that are reportable under either U.S. generally
accepted government auditing standards or OMB guidance. However, the objective
of the audit was not to provide an opinion on overall compliance with laws and
regulations; therefore, they did not express an opinion.

         Material Weaknesses and Significant Deficiency

During their audit of the agency’s financial statements for the fiscal years ended
September 30, 2011 and 2010, OA identified material weaknesses in the following
areas:

     •   information technology security – risk management framework;

                                                     Semiannual Report to the Congress
 6
                                                         October 1, 2011 ▪ March 31, 2012
                               Office of Inspector General for the
                                   Railroad Retirement Board

    •   information technology security – applications and services;
    •   internal control over non-integrated subsystems; and
    •   budgetary reporting.

Additionally, OA identified a significant deficiency in the agency’s compliance audits
of external railroad employers. This significant deficiency increases the risk that
railroad reporting errors could remain undetected.

The agency is working to address these identified areas.

        Management and Performance Challenges Facing the
        Railroad Retirement Board
OA’s Management and Performance Challenges Facing the Railroad Retirement Board
is published in RRB’s annual Performance and Accountability Report. This statement is
prepared pursuant to the Reports Consolidation Act of 2000 and the requirements of
OMB Circular A-136. This Circular requires OIGs to identify the most serious
management challenges facing their parent agency and to briefly assess the agency’s
progress in addressing those challenges.

OA’s identification of challenges facing RRB management is based on recent audits and
evaluations; new congressional directives to prevent improper payments and fraud in
government programs; and continued lack of audit oversight for the National Railroad
Investment Trust (NRRIT), a multi-billion dollar investment enterprise. The following
challenges were identified:

   •    oversight and transparency of invested program assets;
   •    disability and Railroad Medicare program integrity;
   •    information technology security;
   •    controls over non-integrated subsystems;
   •    human capital management; and
   •    preventing and detecting improper payments.




Semiannual Report to the Congress                                                        7

October 1, 2011 ▪ March 31, 2012
                                Office of Inspector General for the
                                    Railroad Retirement Board

         Fiscal Year 2011 Financial Statement Audit Letter to
         Management
On January 31, 2012, OA issued their Fiscal Year 2011 Financial Statement Audit
Letter to Management. This letter transmits OA’s memorandum on internal control
which communicates certain internal control matters that came to OA’s attention during
the financial statement audit.

In addition to the previously identified material weaknesses, OA noted certain other
matters involving the RRB’s internal control structure and its operation. Although these
matters do not rise to the level of a material weakness or significant deficiency, either
individually or in the aggregate, they represent areas in which control weaknesses
increase the risk of error or mishandling.

     •   RRB risks issuing incorrect statement of budgetary resources and financial
         statement notes.
     •   Internal controls are not sufficient to ensure that information included in the
         annual Performance and Accountability Report reflects the latest changes in
         guidance for social insurance.
     •   Internal controls are not sufficient to ensure that the quality assurance section,
         and checklists referenced in the Actuary’s internal policies and procedures,
         reflect the latest changes in guidance for social insurance reports and
         documents.
     •   The agency’s Bureau of Fiscal Operations does not always identify errors or non-
         compliance with applicable guidance for data provided to them from other agency
         bureaus. It was also observed that the agency’s existing control framework is
         over-reliant on the OIG’s annual audit of the financial statements to ensure that
         these documents are accurate and comply with applicable guidance.

RRB management has agreed to take action on our recommendations relating to the
above findings.




                                                    Semiannual Report to the Congress
 8
                                                       October 1, 2011 ▪ March 31, 2012
                               Office of Inspector General for the
                                   Railroad Retirement Board

       Fiscal Year 2011 Evaluation of Information Security at
       the Railroad Retirement Board
OA conducted an evaluation of information security at the RRB for FY 2011, which is
mandated by the Federal Information Security Management Act of 2002 (FISMA). The
objectives of this evaluation included testing the effectiveness of the information security
policies, procedures, and practices of a representative subset of the agency’s
information systems; and a report on selected elements of the agency’s information
security program to be prepared in compliance with OMB’s FY 2011 FISMA reporting
instructions.

In a separately issued Restricted Distribution report, OA communicated that the RRB
continues to make progress in implementing an information security program that meets
the requirements of FISMA; yet a fully effective security program has not been
achieved. The significant deficiency in the internal control structure over the review of
contractor deliverables, associated with the risk management framework, remains
unresolved. Additionally, OA cited the RRB with a significant deficiency in its security
configuration management program. OA also noted some lesser deficiencies in the
RRB’s security program. In total, OA made 13 detailed recommendations to RRB
management. For example, OA recommended that RRB management should:

   •   develop and implement a comprehensive risk management governance strategy
       that builds information security capabilities into federal information systems,
       maintains awareness of the systems’ security state, and provides essential
       information to facilitate decisions;
   •   obtain the necessary funding and resources to decommission unsupported
       equipment;
   •   provide additional security awareness training to employees;
   •   improve data collection methods, and performing a quality assurance review of
       security incidents and data reported internally and externally;
   •   implement and perform a quarterly quality assurance review for the preparation
       and processing of system access re-authorizations; and
   •   formally review and publish the agency’s Capital Planning and Investment
       Control Guide.

RRB management has agreed to take corrective actions on all 13 recommendations.
Semiannual Report to the Congress                                                      9

October 1, 2011 ▪ March 31, 2012
                              Office of Inspector General for the
                                  Railroad Retirement Board

       Evaluation of the Railroad Retirement Board’s Oversight
       of Railroad Employer Compliance
OA reviewed the RRB’s oversight of railroad employer compliance. In 1993, the agency
approved the establishment of the Audit and Compliance Division (ACD) within the
RRB’s Bureau of Fiscal Operations. ACD conducts external audits of railroad employers
to ensure compliance under the RRA and the RUIA, and verifies the accuracy and
timeliness of reported compensation and contributions. Although ACD does not have
authority to audit taxes under the Railroad Retirement Tax Act, its staff reviews the
compensation amounts on which these payroll taxes are based. The objectives of this
audit were to evaluate the accuracy and completeness of ACD’s audit results, and the
effectiveness of ACD’s audit process, for a selected Non-Class I Railroad employer.

Key Findings

OA found that, for the selected Non-Class I Railroad employer, ACD’s audit results were
not fully accurate and complete, and their process was not fully effective to ensure
compliance with RRA and RUIA. ACD did not:

   •   use finalized documents for reconciliations;
   •   pursue individual compensation differences below $1,000 per employee, per
       year;
   •   have sufficiently detailed procedures to identify potentially covered employees;
       and
   •   properly communicate and coordinate with other RRB units.

OA identified potential underreported Tier I and Tier II creditable compensation of
approximately $283,000 and $320,000, respectively, which resulted in a potential
$84,000 in taxes lost to the RRB’s trust fund.




                                                  Semiannual Report to the Congress
 10
                                                      October 1, 2011 ▪ March 31, 2012
                               Office of Inspector General for the
                                   Railroad Retirement Board

Recommendations

To improve operations, OA recommended that the agency’s Bureau of Fiscal
Operations:

   •   implement controls to ensure that auditors verify all information used in their final
       audit reports;
   •   implement controls to ensure ongoing communication with audited railroad
       employers and other RRB units during the entire audit process;
   •   revise its procedures to use lower thresholds for pursuing identified differences in
       creditable compensation;
   •   request that the railroad employer submit a compensation adjustment report to
       correct the 141 employees with creditable compensation differences in calendar
       year (CY) 2007;
   •   revise the railroad employer audit procedures to ensure that potentially covered
       employees are identified;
   •   refer the 11 identified individuals to the ACD’s coverage unit for review;
   •   establish controls for agency-wide coordination to ensure railroad employer
       compliance;
   •   request that the railroad employer submit a compensation adjustment report to
       credit service months for wage continuation in CYs 2008 and 2009; and
   •   request that the railroad employer submit a new compensation adjustment report
       to reverse the September 2008 compensation adjustment report.

Management’s Response

RRB agreed to take corrective action on all nine audit recommendations.




Semiannual Report to the Congress                                                      11

October 1, 2011 ▪ March 31, 2012
                              Office of Inspector General for the
                                  Railroad Retirement Board

      Audit of the Railroad Retirement Board’s Compliance
      with the Improper Payments Elimination and Recovery
      Act
On July 22, 2010 the President signed the Improper Payments Elimination and
Recovery Act of 2010 (IPERA), amending the Improper Payments Information Act of
2002, which is meant to achieve the President’s goal of reducing wasteful, improper
payments. Subsequently, OMB issued government-wide guidance on the
implementation of IPERA and mandated that each agency’s Inspector General annually
review improper payment reporting in the agency’s Performance and Accountability
Report (PAR) for the most recent fiscal year.

An improper payment is any payment that should not have been made or that was
made in an incorrect amount under the statutory, contractual, administrative, or other
legally applicable requirements. Incorrect amounts are overpayments or underpayments
that are made to eligible recipients. An improper payment also includes any payment
that was made to an ineligible recipient or for an ineligible good or service, or payments
for goods or services not received. For FY 2010, the agency reported approximately
$62.3 million in improper RRA payments which were .58% of total outlays of
$10,780.2 million.

Key Findings

OA’s review disclosed that the RRB’s reporting of improper payment balances in their
FY 2011 PAR was complete and all data reviewed contained the necessary
components. However, OA’s review disclosed that RRB’s reporting was understated by
$257,000 and the agency’s verification review process is not fully effective to identify
errors in improper data.

Recommendation

OA recommended that the agency strengthen their existing review process to ensure
the accuracy of IPERA reporting details in the annual PAR.




                                                  Semiannual Report to the Congress
 12
                                                      October 1, 2011 ▪ March 31, 2012
                               Office of Inspector General for the
                                   Railroad Retirement Board

Agency Response

The agency concurred with this recommendation.

       Audit of the Application Express System’s Date of Death
       Reliability
OA conducted an audit to assess the reliability of dates of death residing within the
RRB’s Application Express (APPLE) system and to evaluate input and output controls
over APPLE date of death information transmitted to the agency’s Medicare Information
Recorded, Transmitted, Edited and Logged (MIRTEL) system and the agency’s
Payment Rate and Entitlement History (PREH) system. This audit focused on controls
over the accuracy and completeness of APPLE system dates of death, the retention of
APPLE system proof of death records, and date of death consistency across the RRB’s
APPLE, MIRTEL, and PREH systems.

Key Findings

OA identified the following weaknesses:

   •   available APPLE system data are not always used to correct unreliable MIRTEL
       system dates of death;
   •   RRB procedures do not require correction of an inaccurate day of death; and
   •   proof of death is not adequately retained in the RRB’s claim folder system.

Key Recommendations

To address the identified weaknesses, OA recommended that RRB officials:

   •   identify an optimal method for updating preexisting date of death records in
       MIRTEL with available APPLE dates of death that will maximize accuracy and
       consistency across RRB systems;
   •   establish a periodic date of death validation process that will ensure the reliability
       of date of death data disseminated within and outside of the agency;
   •   determine the feasibility of classifying date of death data based on its proof of
       death status prior to external distribution;
Semiannual Report to the Congress                                                       13

October 1, 2011 ▪ March 31, 2012
                              Office of Inspector General for the
                                  Railroad Retirement Board

   •   revise the RRB’s death notification procedures to require field service
       representatives to re-enter the correct "day" of death, when it has been
       determined that the wrong "day" of death was previously received and entered
       into the APPLE system; and
   •   require retention of a scanned copy of the proof of death in the RRB’s claims
       folder system.

Management’s Response

The Office of Programs agreed with three of our recommendations and disagreed with
two recommendations. The following details the two rejected recommendations.

The Office of Programs disagreed with our recommendation to periodically validate date
of death data. Their reasoning failed to address the date of death anomalies contained
in the agency’s MIRTEL system. We are still concerned regarding the possibility of
outside entities unknowingly using inaccurate date of death data contained in the
agency’s MIRTEL system. If the Office of Programs implemented our recommendation
regarding the establishment of a periodic date of death validation process, they could
potentially identify other data reliability issues.

Additionally, the Office of Programs disagreed with our recommendation regarding proof
of death retention. Their current practice of not scanning supporting documents into the
RRB’s system of records does not comply with the agency’s requirement for electronic
records, Federal internal control standards, or management’s assertions regarding its
internal controls for imaging.

We encourage the agency to reassess their rejection of these recommendations.




                                                 Semiannual Report to the Congress
 14
                                                     October 1, 2011 ▪ March 31, 2012
                              Office of Inspector General for the
                                  Railroad Retirement Board

      Management Decisions and Implementation

As part of its oversight activities, the OIG tracks the agency’s implementation of audit
recommendations. Additionally, OMB Circular No. A-50 (Revised) and the Inspector
General Act Amendments of 1988 require the reporting of management decisions and
corrective actions for all audit recommendations.

                                Management Decisions
           Requiring Management Decision on October 1, 2011               0
           Pending Management Decision for New
                                                                          0
           Recommendations
           Management Decision on Previous Recommendations                0
           Recommendations Pending Management Decision on
                                                                          0
           March 31, 2012



                                   Corrective Action
           Recommendations Requiring Action on October 1, 2011           187
           Recommendations Issued During Reporting Period                 34
           Corrective Actions Completed During Reporting Period           28
           Recommendations Rejected During Reporting Period               2
           Final Actions Pending on March 31, 2012                       191




Semiannual Report to the Congress                                                    15

October 1, 2011 ▪ March 31, 2012
                                     Office of Inspector General for the
                                         Railroad Retirement Board

         Office of Investigations

OI's primary objective is to identify, investigate, and refer for prosecution or monetary
recovery action cases of waste, fraud, or abuse in the RRB’s programs. OI also seeks
to prevent and deter program fraud by reporting systemic weaknesses, as identified
through investigative work, in the RRB’s operations and processes. In order to
maximize the impact of its resources, OI continues to pursue cooperative investigative
activities in coordination with other Inspectors General and law enforcement agencies,
such as the Federal Bureau of Investigation, the U.S. Secret Service, and the Postal
Inspection Service.

         Current Caseload

During this semiannual reporting period, OI reviewed 115 matters and opened 72 new
cases.

                                    Investigative Caseload Data
          Investigative Cases Open as of October 1, 2011                                 545
          Investigative Cases Opened During Reporting Period                              72
          Investigative Cases Closed During Reporting Period                             129
          Investigative Cases Open as of March 31, 2012                                  488

As of March 31, 2012, OI’s investigative case load totaled 488 matters. This represents
more than $142 million 2 in potential fraud loss being investigated by OI’s staff of 15
Special Agents. The chart located on the next page reflects the distribution of OI cases
by RRB major program area including potential fraud losses.



2
  This reflects potential fraud amounts related to programs administered exclusively by the RRB and potential
fraud amounts from other Federal programs such as Medicare or Social Security which have been identified
during OI’s joint investigative work.

                                                             Semiannual Report to the Congress
    16
                                                                  October 1, 2011 ▪ March 31, 2012
                                    Office of Inspector General for the
                                        Railroad Retirement Board

       Current Caseload By Case Type


                      74 Cases             47 Cases
                   $133.6 Million         $1.4 Million
                                                                       Other*
                                                                       Disability
                                                                       Unemployment-Sickness
     56 Cases
                                                                       Retirement
    $1.4 Million
                                                                       Medicare

                                                          127 Cases
                                                         $3.3 Millon




                     184 Cases
                    $2.3 Million



*Other case type is an amalgam of various types of cases involving matters such as misconduct by RRB
employees, threats against agency employees, false reporting by railroad employers, and others.




Semiannual Report to the Congress                                                               17

October 1, 2011 ▪ March 31, 2012
                                   Office of Inspector General for the
                                       Railroad Retirement Board

         Investigative Accomplishments

                                                                 October 1, 2011 –
             Action
                                                                  March 31, 2012
             Referrals to the Department of Justice                        50

             Indictments/Informations                                      69
             Arrests                                                       15
             Convictions                                                   43
             Civil Complaints                                               9
             Civil Judgments                                               13
             Restitution and Fines                                   $20 Million 3
             Civil Damages and Penalties                            $42.1 Million 4
             Investigative Recoveries 5                                $245,000
             Community Service Hours                                      490




3
  The total amount of financial accomplishments in this table reflect fraud amounts related to programs
administered exclusively by the RRB and fraud amounts from other Federal programs such as Medicare or
Social Security which were included in the disposition resulting from the investigation.
4
  See above footnote.
5
  RRB benefits that are overpaid due to fraud and can be recouped through RRB administrative recovery
action are expressed as investigative recoveries.

                                                          Semiannual Report to the Congress
    18
                                                              October 1, 2011 ▪ March 31, 2012
                               Office of Inspector General for the
                                   Railroad Retirement Board

       Representative Investigations
       October 1, 2011 – March 31, 2012

       Disability Investigations

OI conducts fraud investigations relating to the RRB's disability program. Railroad
workers who are awarded a disability annuity by the RRB are subject to work
restrictions and earnings limitations. Disability benefit fraud often involves sophisticated
schemes to hide disqualifying work activities from the RRB.

During this reporting period, OI obtained eight convictions and one civil judgment in
disability fraud cases. The defendants received, in the aggregate, sentences totaling
more than 13 years of probation, 250 hours of community service, and were ordered to
pay approximately $175,000 in restitution, fines, and civil damages/penalties.

Descriptions of representative cases completed during this reporting period follow.

       11 Individuals Charged and Arrested in Alleged Occupational
       Disability Fraud Scheme
OI’s joint investigation with the Federal Bureau of Investigation unraveled a complex
occupational disability fraud scheme allegedly perpetrated by a number of railroad
retirees, doctors, and disability facilitators. On October 27, 2011, the Inspector General,
the United States Attorney for the Southern District of New York, and the Federal
Bureau of Investigation announced charges against seven railroad retirees, two doctors,
and two disability facilitators for their alleged involvement in a brazen occupational
disability fraud scheme.

As alleged in a publically available 74 page complaint, OI’s joint investigation revealed
that three doctors used their medical practices to run “disability mills.” These doctors
charged a premium of approximately $800 to $1,000 in exchange for fraudulent medical
documentation designed to qualify their “client” for an RRB occupational disability. In
fact, the doctors allegedly helped the retiree “pre-plan” their disability so that it would
coincide with their anticipated retirement date.


Semiannual Report to the Congress                                                      19

October 1, 2011 ▪ March 31, 2012
                                Office of Inspector General for the
                                    Railroad Retirement Board

It is also alleged that some of the retirees used disability “facilitators” to increase their
likelihood of being awarded an occupational disability. The facilitators assisted and
coached their disability clients on how to complete the RRB occupational disability
application in order to gain approval. One of the facilitators charged in this scheme is a
former RRB employee.

OI’s joint investigation into this expansive fraud scheme remains ongoing. The charges
contained in the complaint are accusations and the defendants are presumed innocent
until proven guilty.

       Annuitant Conceals Family Business from the RRB
Special Agents investigated an RRB disability annuitant who had initially reported self-
employment and ownership of a construction company to the RRB but claimed that he
was closing the company because he was physically unable to work. OI’s subsequent
investigation revealed that instead of the closing the company, the annuitant simply
renamed the company and put it in his spouse’s name. Additionally, it was discovered
that the annuitant maintained two sets of books in order to conceal the company’s
income from the RRB. The annuitant’s failure to report his excess earnings to the RRB
caused him to fraudulently receive more than $30,000 in disability payments.

This case was referred to the United States Attorney’s Office for the Southern District of
Iowa which filed an indictment against the annuitant. He pled guilty to Failure to Report
Information to the U.S. RRB and Filing a False Income Tax Return. He entered into a
plea agreement with the U.S. Attorney’s Office agreeing to 3 months of home
confinement, 2 years of probation, 200 hours of community service, and full restitution.

       Pastor Fraudulently Collected $60,000 in Disability Benefits
OI Special Agents investigated an RRB disability annuitant who failed to report his
income and excess earnings he received from his position as a pastor for a local
church. The annuitant’s failure to report this information to the RRB caused him to
fraudulently receive approximately $60,000 in disability payments.




                                                     Semiannual Report to the Congress
 20
                                                         October 1, 2011 ▪ March 31, 2012
                              Office of Inspector General for the
                                  Railroad Retirement Board

This case was referred to the United States Attorney’s Office for the Eastern District of
Kentucky. The United States Attorney’s Office entered into a settlement agreement with
the annuitant for $60,000.

      Annuitant Failed to Report Self-Employment to the RRB
OI Special Agents investigated an RRB disability annuitant who failed to report income
and excess earnings received from self-employment. The annuitant’s failure to report
his excess earnings to the RRB caused him to fraudulently receive more than $22,000
in disability payments.

This case was referred to the United States Attorney’s Office for the District of North
Dakota. The United States Attorney’s Office filed an information against the annuitant
for Failure to Report Information to the U.S. RRB. The annuitant pled guilty and was
sentenced to three years of probation, full restitution, and a special assessment fee.

      Unemployment-Sickness Insurance Investigations

Unemployment Insurance-Sickness Insurance benefit fraud typically involves individuals
claiming and receiving Unemployment Insurance (UI) or Sickness Insurance (SI)
benefits while working or collecting state administered unemployment benefits. OI
receives the majority of these cases from the RRB’s Disability, Sickness, and
Unemployment Benefits Division as a result of information developed through state
wage matching programs. The RRB conducts computer wage matches with various
states to identify claimants who may have collected RRB administered UI or SI benefits
on the same days they received wages from a private employer or on the same days
they received state administered unemployment benefits.

Since the enactment of the American Recovery and Reinvestment Act of 2009 and
various other benefit extending legislation, OI has seen a substantial increase of
UI fraud referrals. In fact, almost 94% of OI’s current UI fraud cases involve extended
UI benefits.

During this reporting period, OI obtained nine convictions and ten civil judgments for
UI-SI fraud cases. Defendants in these cases received, in the aggregate, 11½ years of

Semiannual Report to the Congress                                                    21

October 1, 2011 ▪ March 31, 2012
                               Office of Inspector General for the
                                   Railroad Retirement Board

probation, 100 hours of community service, and were ordered to pay more than
$392,000 in restitution, fines, and civil damages/penalties.

The following are examples of UI-SI cases completed during this reporting period.

       UI Claimant Prosecuted in State Court
OI initiated this investigation of an RRB UI claimant based upon an agency referral. OI’s
subsequent investigation, determined that during October 2007 through April 2008 the
claimant applied for RRB UI benefits on many of the same days he worked for a private
employer. The claimant’s failure to report his employment and earnings to the RRB
caused him to fraudulently receive over $6,000 in UI benefits.

This case was referred to the Office of the District Attorney for Montgomery County,
Pennsylvania. The claimant entered a guilty plea for violating Pennsylvania Statute
18-3922, Theft by Deception, False Pretenses and was sentenced to four years of
probation and ordered to pay $1,731 in restitution. The claimant had already repaid
$4,700 prior to sentencing.

       UI Claimant Enters into Pretrial Diversion
OI initiated an investigation of an RRB UI claimant based upon an agency referral. OI’s
subsequent investigation determined that during the period of August 2009 through April
2010, the claimant applied for RRB UI benefits on many of the same days he was
working as a car salesman. His actions resulted in the theft of more than $10,000 in UI
benefits.

This case was referred to the United States Attorney’s Office for the Western District of
Arkansas. The claimant entered into an 18 month Pretrial Diversion agreement with the
United States Attorney’s Office for violation of False Claims. Under this agreement, the
claimant must pay full restitution and report regularly to a U.S. Pretrial Services Officer
for length of the agreement or until full restitution has been paid to the government.




                                                   Semiannual Report to the Congress
 22
                                                       October 1, 2011 ▪ March 31, 2012
                               Office of Inspector General for the
                                   Railroad Retirement Board

       Default Judgment Entered Against UI Claimant
OI initiated an investigation of an RRB UI claimant based upon an agency referral. OI’s
subsequent investigation determined that during the period of February 2008 through
September 2008, the claimant applied for RRB UI benefits on many of the same days
he was working and being paid by a private employer. He submitted a total of 15 false
claims when applying for benefits by intentionally not reporting his employment. His
actions resulted in the theft of almost $9,000 in UI benefits.

This case was referred to the United States Attorney’s Office for the District of New
Jersey. The United States Attorney’s Office filed a civil complaint for violations of the
False Claims Act. OI Special Agents served the claimant with a copy of the complaint
and a summons; however, he failed to respond. Subsequently, the District Court
entered a default judgment against him for over $26,000.

       Retirement-Survivor Benefits and Representative Payee
       Investigations
The RRA provides retirement-survivor benefits for qualified railroad workers and their
families. RRB retirement-survivor benefit fraud typically involves:

   •   an individual failing to report information to the RRB that may disqualify the
       annuitant from receiving benefits;
   •   instances of theft or fraudulent cashing of retirement benefit checks by someone
       other than the authorized RRB annuitant; or
   •   an individual designated to receive RRB benefits on behalf of an RRB annuitant
       fraudulently using the funds for their own personal use.

During this reporting period, OI obtained one conviction and one civil judgment for
retirement benefit fraud cases. Defendants in these cases received, in the aggregate,
5 years of probation, 100 hours of community service, and were ordered to pay almost
$152,000 in restitution, fines, and civil damages/penalties.




Semiannual Report to the Congress                                                      23

October 1, 2011 ▪ March 31, 2012
                               Office of Inspector General for the
                                   Railroad Retirement Board


The following are brief summaries for each case.

      Annuitant’s Commission Fraudulently Paid to Spouse
OI Special Agents investigated an RRB retirement annuitant who, in order to conceal
his work as an independent contractor, directed that his commissions and expenses be
paid to his spouse. OI’s investigation revealed that both the annuitant and his spouse
worked as independent contractors for the same organization; however, they directed
that all commissions and reimbursements be paid to the spouse. The annuitant’s failure
to report his income to the RRB caused him to fraudulently receive almost $53,000 in
retirement payments.

This case was referred to the United States Attorney’s Office for the District of Kansas.
The annuitant entered into a settlement agreement with the U.S. Attorney’s Office
agreeing to pay $75,000 to settle charges under the False Claims Act.

      Annuitant’s Niece Steals Almost $77,000 in RRB Benefits
OI’s investigation revealed that an RRB annuitant had passed away in July 1999;
however, RRB continued to deposit electronic funds into a joint bank account until
August 2006. Special Agents determined that the annuitant’s niece was the joint owner
on the account and had used almost $77,000 in RRB benefits for her own personal
benefit.

This case was referred to the United States Attorney’s Office for the Southern District of
Texas. The United States Attorney’s Office filed an indictment charging the niece with
Wire Fraud, False Statements, and Theft of Government Funds. She pled guilty to one
count Theft of Government Funds and was sentenced to 5 years of probation, 100
hours of community service, full restitution, and a special assessment.




                                                   Semiannual Report to the Congress
 24
                                                      October 1, 2011 ▪ March 31, 2012
                                      Office of Inspector General for the
                                          Railroad Retirement Board

        Railroad Medicare Investigations
During this reporting period, OI obtained 25 convictions and 1 civil judgment in Railroad
Medicare fraud cases. Defendants in these cases received, in the aggregate, more than
82 years of jail, 66 years of probation, 40 hours of community service, and were ordered
to pay more than $61.4 million in restitution, fines, and civil damages/penalties. 6

All of OI’s active Medicare cases are being worked jointly with the Office of Inspector
General for the U.S. Department of Health and Human Services, the Office of Inspector
General for the Office of Personnel Management, or other agencies responsible for
investigating health care fraud. Interagency cooperation is imperative to effective law
enforcement especially among agencies responsible for investigating the complexities
of health care fraud.

The following are examples of Railroad Medicare cases completed during this reporting
period.

        Qui Tam Lawsuit Settled for $41.8 Million
OI Special Agents worked cooperatively as members of a multi-agency team
investigating allegations contained in a Qui Tam lawsuit filed in the Eastern District of
Tennessee. Agents were able to substantiate the allegations contained in the Qui Tam
and the U.S. Attorney’s Office for the Eastern District of Tennessee intervened in the
case.

The team’s investigation revealed that the subject durable medical equipment provider
knowingly submitted numerous false claims to Medicare and Railroad Medicare for
specialized medical equipment which was medically unnecessary.

In order to resolve these allegations, the provider entered into a settlement agreement
with the U.S. Attorney’s Office for the Eastern District of Tennessee consenting to pay
$41.8 million to the government. Additionally, the provider entered into a comprehensive


6
 This total reflects the full amount of restitution, fines, and civil damages/penalties ordered. Since OI’s
Railroad Medicare fraud cases are joint investigations, the total dollar amount includes losses to other health
care programs.
Semiannual Report to the Congress                                                                         25

October 1, 2011 ▪ March 31, 2012
                               Office of Inspector General for the
                                   Railroad Retirement Board

five year Corporate Integrity Agreement with the Office of Inspector General for the U.S.
Department of Health and Human Services.

       Three Individuals Sentenced for Health Care Fraud
OI initiated this investigation pursuant to a referral from the Office of Inspector General
for the Department of Health and Human Services. The subsequent joint investigation
revealed that the owners of a medical clinic, along with a nurse employed by the clinic,
conspired to fraudulently bill Medicare for services which were never provided.

This case was referred to the United States Attorney’s Office for the Southern District of
Georgia. All three individuals entered in to a plea agreement with the U.S. Attorney’s
Office. The first owner pled guilty to Violation of Assignment Terms and was sentenced
to 3 years of probation, 40 hours of community service, forfeiture of more than
$1.3 million, and a special assessment. The second owner pled guilty to Conspiracy to
Commit Medicare Fraud and Aggravated Identity Theft. He was sentenced to
133 months of prison, restitution of more than $3.9 million, and a special assessment.
The nurse pled guilty to Payment of Kickback Related to Federal Health Care Program
and was sentenced to 13 months of prison, 3 years of supervised probation, 40 hours of
community service, $20,000 in restitution, and a special assessment.

       Durable Medical Equipment Company Owner Sentenced to More
       Than 8 Years of Prison
Pursuant to a referral from the Medicare Fraud Strike Force, OI initiated this
investigation against four individuals: the owner and office manager of a Texas Durable
Medical Equipment company and two patient recruiters. The subsequent joint
investigation revealed that the owner and office manager had paid kickbacks to the
patient recruiters in exchange for patient information. This information was used to
submit approximately $4.3 million in false claims to Medicare, Medicaid, and private
insurance companies.




                                                    Semiannual Report to the Congress
 26
                                                        October 1, 2011 ▪ March 31, 2012
                                    Office of Inspector General for the
                                        Railroad Retirement Board

This case was referred to the United States Attorney’s Office for the Southern District of
Texas. After a five day trial the owner was convicted of Conspiracy to Commit Health
Care Fraud, Aiding and Abetting in Health Care Fraud, and Violating the Anti-Kickback
Statute. He was sentenced to 97 months of prison. The other three individuals had
previously pled guilty to Conspiracy to Commit Health Care Fraud and violating the
Anti-Kickback Statute. They were sentenced to a combined 86 months of prison. All four
individuals were sentenced to jointly repay more than $1.5 million in restitution.

        Civil Enforcement Results
OI may pursue civil actions to obtain judicial orders for the recovery of funds
fraudulently obtained by annuitants or claimants. These civil actions are typically
brought under the provisions of the False Claims Act. This statute provides that the
government may recover up to treble damages as well as $5,500 to $11,000 for each
false claim submitted.

During this semiannual reporting period, a total of 13 civil judgments were entered by
U.S. District Courts for RRB fraud cases totaling more than $42.1 million in damages
and penalties. 7 Some of these civil actions are pursued under the Department of
Justice’s Affirmative Civil Enforcement program which provides an efficient and
effective means to address fraud against the RRB’s programs.




7
 The total amount of damages and penalties listed reflects fraud amounts related to programs administered
exclusively by the RRB and fraud amounts from other Federal programs such as Medicare or Social Security
which were included in the disposition resulting from the investigation.

Semiannual Report to the Congress                                                                   27

October 1, 2011 ▪ March 31, 2012
                             Office of Inspector General for the
                                 Railroad Retirement Board

      Hotline Contacts
The OIG established its Hotline to receive complaints concerning suspected fraud,
waste, and abuse in the RRB’s programs and operations. The Hotline provides an open
line of communication for individuals to report suspected criminal activity and
mismanagement/waste of RRB funds.

The Hotline received 631 contacts during this reporting period. The following table
summarizes Hotline referrals or other action during this reporting period.

                                                  October 1, 2011 –
                  Referral or Other Action
                                                   March 31, 2012
                Other (Hang Ups,
                Misdirected Calls,                        248
                Disconnections, etc.)
                Referred to RRB District or
                                                          219
                Regional Office
                Referred to OI                            83
                Referred to Another Federal
                                                          32
                Agency
                Calls with Insufficient
                Information to Make                       29
                Appropriate Referrals
                Referred to RRB Bureaus                    9
                Disposition Not Yet
                Determined, Additional
                                                           8
                Information is Being
                Obtained
                Referred to Durable Medical
                Equipment Medicare                         2
                Administrative Contractor
                Referred to a Railroad                     1



                                                 Semiannual Report to the Congress
 28
                                                     October 1, 2011 ▪ March 31, 2012
                               Office of Inspector General for the
                                   Railroad Retirement Board

       OTHER OVERSIGHT ACTIVITIES

       American Recovery and Reinvestment Act of 2009

During this semiannual period, the OIG continued their efforts to aide in a transparent
American Recovery and Reinvestment Act process by preparing monthly progress
reports in formats developed by the Recovery Accountability and Transparency Board.
These monthly reports are published on the Recovery.gov website and are also
available on the RRB’s Recovery Act Information webpage.

Since the enactment of the American Recovery and Reinvestment Act of 2009 and
various other benefit extending legislation, OI has seen a substantial increase of
UI fraud referrals. In fact, almost 94% of OI’s current UI fraud cases involve extended
UI benefits.

       Occupational Disability Program
The prevention of improper payments remains a priority for the OIG and we continue to
devote investigative and audit resources to strengthening the integrity of the RRB’s
benefit programs including the occupational disability program. In fact, over the last
several years, the Inspector General has identified a wide range of recommendations to
strengthen the integrity of the occupational disability program.

Most recently, on November 7, 2011, the OIG transmitted two documents to the
agency’s three-member Board pertaining to the occupational disability program. The
first document, Program Vulnerabilities in the Railroad Retirement Board Occupational
Disability Program, contained recommendations aimed at improving the integrity of the
occupational disability program and the second document, Disability Program
Recommendations, provided a summarized version of each recommendation. The
following are a few of the vulnerable areas highlighted in our November 7, 2011
transmittal to the Board:

   •   annual certification and disability reminder notices;
   •   verification of job information and consideration of job attendance information;

Semiannual Report to the Congress                                                     29

October 1, 2011 ▪ March 31, 2012
                                     Office of Inspector General for the
                                         Railroad Retirement Board

     •   consideration of all relevant medical information;
     •   trend analysis of health care professionals; and
     •   elimination of “benefit stacking.”

The RRB’s occupational disability has fundamental problems. 8 This is not a new or
unique opinion. The agency owes it to the nation’s railroad workers and their families to
fulfill their mission by paying “benefits to the right people, in the right amounts, in a
timely manner, and … [taking] appropriate action to safeguard [their] customers’ trust
funds.” 9

         OUTREACH ACTIVITIES
In addition to audit and investigative activities, OIG staff members perform outreach
activities as a means to further the office’s mission. The following are examples of
outreach activities conducted during this reporting period.

The Inspector General made a presentation to students majoring in Government
Oversight and Inspection at John Jay College of Criminal Justice in New York. His
presentation focused on government auditing standards and issues pertinent to the
Inspector General community.

An OI Special Agent successfully worked with his local District Attorney’s Office to gain
inclusion of the RRB in their local Crime Stoppers initiative. This initiative rewards
individuals for providing information which leads to the arrest of a fugitive or the
prosecution of a subject for benefit fraud.

An OI Special Agent currently serves as a board member and attends monthly meetings
for a tri-state criminal investigators association.




8
  See page 19 for details relating to an ongoing investigation of a brazen occupational disability fraud
scheme.
9
  Railroad Retirement Board, Mission Statement. (Chicago, Illinois: September 2003). Retrieved from
http://www.rrb.gov/general/mission.asp. Accessed March 29, 2012.

                                                             Semiannual Report to the Congress
    30
                                                                 October 1, 2011 ▪ March 31, 2012
                               Office of Inspector General for the
                                   Railroad Retirement Board

An OI Special Agent participates in an insurance/health care fraud working group
organized by her local District Attorney’s Office.

OI staff members participated in a number of Medicare related meetings including
several task forces. These task forces provide an open forum for health care fraud
related communications and foster a team approach to health care fraud investigations.
Members of the various task forces include representatives from: the Department of
Justice; the Centers for Medicare and Medicaid Services; the Office of Inspector
General for the Department of Health and Human Services; the Office of Inspector
General for the Office of Personnel Management; the Federal Bureau of Investigation;
various State Police agencies; various Medicaid Fraud Control Units; and Medicare
Program Safeguard Contractors. Since Railroad Medicare is a national program, OI
staff members attend task forces in several judicial districts. Participation in Task Force
meetings allows the Special Agents to develop the necessary contacts and information
to ensure that Railroad Medicare fraud losses will be included in Medicare
investigations. They also provide an opportunity for OI Special Agents to become
familiar with the most recent fraud schemes.

The Assistant Inspector General for Audit, audit staff, and an Information Technology
representative met with the Office of Inspector General for the Office of Personnel
Management’s Assistant Inspector General for Audits, Deputy Assistant Inspector
General for Audits, information systems audit group, and information systems audit staff
to discuss data warehousing initiatives. These meetings served as a catalyst for the
OIG’s data warehouse efforts and provided key contact points for an exchange of ideas.

A number of OA staff members participated in the Institute of Internal Auditors (IIA) –
Chicago Chapter 52nd Annual Seminar. This conference focused on Fraud, The Social
Media Revolution, Future Trends in Privacy, Data Protection & Information Technology.
IIA provides a variety of networking and training opportunities for government auditing
professionals.

OA staff members participated in the Chicago Chapter of the Association of
Government Accountants (AGA). AGA provides a variety of networking and training
opportunities for government auditing professionals. OA staff members currently serve
on the Executive Committee as Membership Director and Website Director.


Semiannual Report to the Congress                                                      31

October 1, 2011 ▪ March 31, 2012
                                  Office of Inspector General for the
                                      Railroad Retirement Board

An auditor serves as the OIG’s representative at the RRB’s monthly Information
Technology Steering Committee and Privacy Committee meetings.

          OPERATIONAL ISSUES
The following operational issue impacts the OIG’s ability to effectively carry out its
oversight role. This issue would have to be remedied with legislative change.

          National Railroad Investment Trust
The NRRIT is a tax-exempt entity independent of the Federal government which was
established by the Railroad Retirement and Survivors’ Improvement Act of 2001
(RRSIA) to manage and invest Railroad Retirement assets. 10 The RRSIA does not
provide the OIG with oversight authority to conduct audits and investigations of the
NRRIT; however, RRSIA does require that the NRRIT report to the RRB.

On March 31, 2008, this office issued a Statement of Concern addressing the RRB’s
passive relationship with the NRRIT. Since the release of this statement, there has been
no corrective action directed toward alleviating our NRRIT oversight concerns despite
our continued concern regarding the questionability of the NRRIT’s long-term trust fund
solvency. Most notable, on September 21, 2011, we issued a report titled Office of
Inspector General’s Proposal to Improve Business Efficiency at the Railroad Retirement
Board which states, among other facts, that the NRRIT’s administrative expenses have
steadily risen and increased by the overall RRB cost structure by more than 70%.
This increase can be partially explained by the number of fund management staff that
would be needed to manage increasingly complex risk-based investment strategies and
transactions. However, minimal information is released publically to justify the recurrent
increases in administrative expenses. Despite the NRRIT’s lack of fund management
transparency and the extraordinary value of the fund’s assets, there has been a
consistently passive approach to fund management and we continue to identify the lack
of oversight in this area as a critical issue.



10
  As of February 29, 2012, the RRB’s investments in the NRRIT were valued at approximately
$24 billion.

                                                        Semiannual Report to the Congress
     32
                                                            October 1, 2011 ▪ March 31, 2012
                              Office of Inspector General for the
                                  Railroad Retirement Board

Additionally, a lack of NRRIT investment fund management accountability,
transparency, and stringent financial oversight can be precursors to fraud, waste, and
abuse. Within the Federal agency spectrum there is no comparable example where
Federal program assets are completely outside of the jurisdiction of a Federal agency’s
appointed Inspector General. However, the NRRIT fund which supports the Railroad
Retirement program remains outside the purview of those appointed to protect the
interests of the program’s beneficiaries and tax-paying public.

To ensure the integrity, economy, and long-term viability of the NRRIT, RRB
management must establish performance audit requirements that will strengthen
administrative and financial oversight and ensure fund transparency.

      LEGISLATIVE & REGULATORY REVIEW
The Inspector General Act of 1978, as amended, requires the Inspector General to
review existing and proposed legislation and regulations relating to the programs and
operations of the agency. The OIG did not make any comments during this reporting
period.




Semiannual Report to the Congress                                                  33

October 1, 2011 ▪ March 31, 2012
      APPENDICES
                                                                             Page
Appendix Title
                                                                              No.
      A   Office of Inspector General Reports and Other Publicly Available    35
          Papers Issued
      B   Audit Reports with Questioned Costs or with Recommendations         36
          that Funds be Put to Better Use
      C   Report on Receivables, Waivers, and Recoveries                      37
      D   Significant Matters                                                 39
      E   Peer Reviews                                                        41
      F   Reports Prepared by Management                                      42
      G   Reporting Requirements                                              49
      H   Acronyms                                                            50
      I   Legal References                                                    51




                                             Semiannual Report to the Congress
 34
                                                October 1, 2011 ▪ March 31, 2012
      Appendix A – Office of Inspector General Reports and Other
      Publicly Available Papers Issued
       •   Report on the Railroad Retirement Board’s Fiscal Year 2011 Financial Statements,
           November 15, 2011

       •   Fiscal Year 2011 Evaluation of Information Security at the Railroad Retirement
           Board - Abstract, January 5, 2012

       •   Evaluation of the Railroad Retirement Board’s Oversight of Railroad Employer
           Compliance, January 26, 2012

       •   Fiscal Year 2011 Financial Statement Audit Letter to Management,
           January 31, 2012

       •   Audit of the Railroad Retirement Board’s Compliance with the Improper Payments
           Elimination and Recovery Act, March 8, 2012

       •   Audit of the Application Express (APPLE) System’s Date of Death Reliability,
           March 30, 2012

All publically available audit reports and papers are available on our website
at www.rrb.gov/oig.




Semiannual Report to the Congress                                                  35

October 1, 2011 ▪ March 31, 2012
        Appendix B – Audit Reports with Questioned Costs or
        with Recommendations That Funds be Put to Better Use


                                                Audit Reports
                                                                Amount of         Amount of
                                                    with
                                                                Questioned       Unsupported
                                                 Questioned
                                                                  Costs             Costs
                                                   Costs
A. For which no management decision had
been made by October 1, 2011
                                                     0                 0              0
B. Which were issued from October 1, 2011
through March 31, 2012
                                                     4           $2.2 billion         0
Subtotal (A + B)                                     4           $2.2 billion         0
C. For which a management decision was
made between October 1, 2011 through                 4           $2.2 billion         0
March 31, 2012
    (i) dollar value of disallowed costs             3           $2.2 billion         0
    (ii) dollar value of costs not disallowed        1            $80,856             0
D. For which no management decision had
been made by March 31, 2012
                                                     0                 0              0
E. Report for which no management
decision was made within six months of               0                 0              0
issuance




                                                           Audit Reports With
                                                           Recommendations
                                                                                  Dollar Value
                                                          that Funds Be Put to
                                                               Better Use
A. For which no management decision had been made by
October 1, 2011
                                                                   0                   0
B. Which were issued from October 1, 2011 through
March 31, 2012
                                                                   1                $3,483
C. Subtotal (A + B)                                                1                $3,483
    (i) dollar value of disallowed costs                           1                $3,483
    (ii) dollar value of costs not disallowed                      0                   0
D. For which no management decision had been made by
March 31, 2012
                                                                   0                   0
E. Report for which no management decision was made
within six months of issuance
                                                                   0                   0


                                                         Semiannual Report to the Congress
  36
                                                           October 1, 2011 ▪ March 31, 2012
      Appendix C – Report on Receivables, Waivers, and
      Recoveries
The FY 1999 appropriations language for the OIG requires the reporting of additional
information concerning actual collections, offsets, and funds put to better use achieved
as a result of the OIG’s activities.

                           Office of Investigations

                         Recoveries realized by the RRB
                          resulting from court-ordered
                          restitution and civil damages
                                                  Amount
                          Fiscal Year
                                                 Recovered
                              1999            $ 855,655
                              2000            $1,038,134
                              2001            $ 990,356
                              2002            $ 785,843
                              2003            $ 947,876
                              2004            $ 646,273
                              2005            $ 844,183
                              2006            $1,281,680
                              2007            $1,347,049
                              2008            $1,389,489
                              2009            $1,097,227
                              2010            $1,118,256
                              2011            $2,293,530
                       October 1, 2011 –
                                              $ 600,687
                        March 31, 2012




Semiannual Report to the Congress                                                   37

October 1, 2011 ▪ March 31, 2012
                                          Office of Audit

                       Funds to be       Funds
                                                        Receivables                Recoveries
             Report    put to better    Agreed by                                           11
                                                        Established     Waivers     to Date
                            use        Management
               99-03        $50,850           $50,850         $50,850    $50,490          $360
               99-14        $83,000           $83,000         $34,423         $0       $30,584
               99-16    $48,000,000       $48,000,000              $0         $0   $19,400,000
               99-17    $11,000,000       $11,000,000              $0         $0    $1,604,545
               00-16       $235,000          $235,000              $0         $0      $253,846
               03-06       $306,129               N/A              $0         $0      $306,129
               04-06       $821,000          $821,000        $604,429     $5,564      $629,688
               04-10       $400,000          $400,000              $0         $0      $761,151
               05-03     $1,800,000        $1,800,000      $4,358,513 $339,244      $2,425,476
               05-06        $10,000           $10,000              $0         $0       $42,915
               05-07     $1,070,000        $1,070,000         $49,943         $0       $92,464
               05-10     $2,600,000        $2,600,000                   $311,000
               06-04       $257,000          $257,000
               06-05          $2,100           $2,100              $0         $0            $0
               06-06       $200,000          $200,000         $13,651         $0       $20,671
               09-02       $600,000          $600,000            $320         $0    $1,022,194
               10-09     $3,355,408        $3,355,408              $0         $0    $3,355,408
               10-13       $212,038           $92,412              $0         $0       $18,614
               12-03          $3,483           $3,483              $0         $0            $0




11
     Both overpayments and underpayments are included in this column.

                                                            Semiannual Report to the Congress
     38
                                                                October 1, 2011 ▪ March 31, 2012
       Appendix D – Significant Matters
The OIG has identified deficiencies in controls over non-integrated subsystems,
budgetary reporting, railroad audits, and information security as significant matters.
A summary of the issues and related recommendations for corrective action follow.

          Internal Control over Non-Integrated Subsystems
The OIG identified the RRB’s non-integrated subsystems as a material weakness.
The RRB’s financial reporting control structure is not comprehensive with respect to the
reconciliation of the general ledger to non-integrated subsystems. The agency has
taken action to address this material weakness by performing reconciliations of the
various non-integrated subsystems that support financial accounting. Although this
shows that progress is being made, the progress is not yet sufficient to ensure that all of
the reconciliations are properly implemented.

Non-Integrated Subsystems             March 11, 2010       Report OIG 10-03, #2


                              Budgetary Reporting
The OIG identified budgetary reporting as a material weakness. During our FY 2011
financial statement audit, we found material errors in the RRB’s Statement of Budgetary
Resources which had to be corrected by the agency prior to completion of the audit. In
addition, the OIG also identified numerous instances of ineffective controls for
budgetary transactions. The agency has taken action to address this material weakness
by providing training and implementing a revised review process.

Budgetary Reporting                  January 31, 2012      Report OIG 12-04, #1 and #2



                                  Railroad Audits
The OIG identified the agency’s performance of railroad audits as a significant
deficiency. The RRB’s organizational unit assigned to perform railroad audits lacked
comprehensive procedures for conducting, reporting and documenting audits to ensure
that compensation is reported in accordance with the law. The agency is working to
address these deficiencies.

Railroad Audits                      January 31, 2012      Report OIG 12-04
                                     February 1, 2011      Report OIG 11-04, #3-7, 11-12




Semiannual Report to the Congress                                                          39

October 1, 2011 ▪ March 31, 2012
                                     Information Security
Risk Management Program
The OIG previously evaluated information security pursuant to the provisions of FISMA
and concluded that the RRB has not yet achieved an effective FISMA-compliant
security program. Although agency managers are working to strengthen controls,
management action in response to the following OIG recommendations had either not
been completed as of the end of the current semiannual reporting period or had not
been in place long enough to permit evaluation.

Internal Control Over the Risk
                       12
Management Program                             July 18, 2005            Report OIG 05-08, #4
                                               September 30, 2008       Report OIG 08-05, #2 & 7
                                               November 12, 2009        Report OIG 10-01, #1 & 5
                                               September 28, 2011       Report OIG 11-10, #1 – 3
                                               September 28, 2001       Report OIG 11-11, #1 – 4
                                               September 29, 2011       Report OIG 11-12, #1 – 5
                                                                                                 13
                                               January 05, 2012         Report OIG 12-02, #1 – 5


Configuration Management
The OIG also identified a material weakness regarding information technology security
application services because the RRB continues to use an unsupported server for some
major applications. Although the agency has moved some of the servers to the virtual
environment, this action does not alleviate the problems associated with processing
data in an unsupported environment. Uncertainties exist in determining the timeframe in
which this situation will be corrected as well as the necessary resources for completion.
                                                                                            14
Security Configuration Management              January 5, 2012          Report OIG 12-02,        #7 & 8




12
   Previously known as Certification and Accreditation.
13
   The abstract online summarizes the results of the evaluation. The full report includes information protected
from disclosure and has been designated for limited distribution pursuant to 5 U.S.C. § 552.
14
   The abstract online summarizes the results of the evaluation. The full report includes information protected
from disclosure and has been designated for limited distribution pursuant to 5 U.S.C. § 552.

                                                               Semiannual Report to the Congress
     40
                                                                   October 1, 2011 ▪ March 31, 2012
       Appendix E – Peer Reviews
Section 989C of the Dodd-Frank Wall Street Reform and Consumer Protection Act
requires Inspectors General to provide information regarding peer reviews in their
Semiannual Reports to the Congress.

       Office of Audit
In general, Federal audit organizations may receive a peer review rating of pass; pass
with deficiencies; or fail.

The results of OA’s most recent peer review (which was for the year ended
March 31, 2009) were transmitted on August 24, 2009. OA received a peer review
rating of pass. This peer review did not contain any recommendations.

OA did not conduct any peer reviews during this semiannual reporting period.

       Office of Investigations
During the peer review process, Federal OIG investigative organizations, in general,
may receive a peer review rating of fully compliant, compliant, or not compliant with the
quality standards established by the Council of the Inspectors General on Integrity and
Efficiency and the Attorney General’s Guidelines for Inspectors General with law
enforcement authority based on Section 6(e) of the Inspector General Act, as amended.

During this reporting period, OI received the result of their most recent peer review (for
the FY ended September 30, 2011). The Office of Inspector General for the United
States Nuclear Regulatory Commission concluded that OI was in compliance with the
quality standards established by the Council of the Inspectors General on Integrity and
Efficiency and the Attorney General’s Guidelines. No formal recommendations were
identified.

Additionally, OI completed their peer review of the U.S. Department of State and the
Broadcasting Board of Governors’ investigative operations through the transmittal of the
Quality Assessment Review on October 4, 2011. The OIG concluded that the U.S.
Department of State and the Broadcasting Board of Governors were in compliance with
the quality standards established by the Council of the Inspectors General on Integrity
and Efficiency and the Attorney General’s Guidelines (for FY 2011 through September
16, 2011). OI did not identify any formal recommendations.



Semiannual Report to the Congress                                                      41

October 1, 2011 ▪ March 31, 2012
       Appendix F – Reports Prepared by Management


                Final Action on Audits with Disallowed Costs
For the 6-Month Period Ending                                    Number of           Disallowed
March 31, 2012                                                  Audit Reports          Costs

A.    Audit reports, with management decisions, on
      which final action had not been taken at the                   0                  $0
      beginning of the period.
B.    Audit reports on which management decisions
      were made during the period.                                   0                  $0

C.    Total audit reports pending final action during
      the period. (A + B)                                            0                  $0

D.    Audit reports on which final action was taken
      during the period.

      1.    Recoveries

            (a) Collections and offsets                              0                  $0

            (b) Property                                             0                  $0

            (c) Other                                                0                  $0

      2.    Recovery Waived                                          0                  $0

      3.    Total of 1 and 2                                         0                  $0

E.    Audit reports needing final action at the end of
      the period (C - D.3).                                                             $0
                                                                      0




                                                         Semiannual Report to the Congress
 42
                                                           October 1, 2011 ▪ March 31, 2012
                 Management Report on Final Action on Audits with
                 Recommendations to Put Funds to Better Use for the
                 6-Month Period Ending March 31, 2012
                                                                    Number of                   Funds to be
                                                                   Audit Reports             Put to Better Use
A.     Audit reports, with management decisions, on
       which final action had not been taken at the
       beginning of the period.                                           5                     $4,249,920*

B.     Audit reports on which management decisions
       were made during the period.                                       1                        $3,483

C.     Total audit reports pending final action during
       the period. (A + B)                                                6                     $4,253,403

D.     Audit reports on which final action was taken
       during the period.

       1.     Value of recommendations implemented
              (completed)                                                 0                          $0

       2.     Value of recommendations that
              management concluded should not or
              could not be implemented (completed)                        0                          $0

       3.     Total of 1 and 2                                            0                          $0

E.     Audit reports needing final action at the end of
       the period (C - D.3)                                               6                     $4,253,403




     * Comprised of the following amounts: $2,100 from Audit Report 06-05, Review of Compliance with
     Provisions of the Railroad Retirement Act Governing the Initial Award of Benefits; $200,000 from Audit
     Report 06-06, Review of the Termination and Suspension of Benefits Paid Under the Railroad Retirement
     Act; $600,000 from Audit Report 09-02, Fiscal Year 2008 Financial Statement Audit Letter to
     Management; $3,355,408 from Audit Report 10-09, Audit of Internal Controls over Medicare Premium
     Transfers Between the Railroad Retirement Board and the Centers for Medicare and Medicaid Services;
     $92,412 from 10-13 Railroad Medicare Services Billed with Dates of Service after Beneficiaries’ Dates of
     Death; and $3,483 from 12-03 Evaluation of the Railroad Retirement Board’s Oversight of Railroad
     Employer Compliance.

     Semiannual Report to the Congress                                                                  43

     October 1, 2011 ▪ March 31, 2012
Management Statement on Resolved Audit Reports Over 12 Months
      Old with Final Action Pending as of March 31, 2012
                                                   Disallowed Funds to be Put
Report                                   Date        Costs     to Better Use       Reason Action Not Completed
Review of Information Security at the   02/5/02      NONE          NONE       Information Services has closed 26 out
Railroad Retirement Board (02-04)                                             of 28 recommendations. A complete
                                                                              review has not yet been completed.
                                                                              Bureau of Information services will
                                                                              provide documentation once review is
                                                                              complete. Work continues.

Review of Internal Control Over the     05/5/05      NONE          NONE       The Chief Actuary is still reviewing their
Actuarial Projection Process (05-04)                                          options to best implement this
                                                                              recommendation.

Review of LAN, LAN Security Scan and    06/7/05      NONE          NONE       These contractor-prepared confidential
Web-based Applications (DSD)                                                  reports contained 45
                                                                              recommendations, with 39 closed thus
                                                                              far. Documentation will be submitted
                                                                              for 3 recommendations and testing is
                                                                              still needed for remaining.

Review of Access Controls in the End-   07/18/05     NONE          NONE       Information Services has closed 14 of
User Computing General Support                                                15 recommendations in this
System (05-08)                                                                confidential report. As reported
                                                                              previously, new risk assessment still
                                                                              must be submitted for remaining case.
                                                                              Work continues.

Fiscal Year 2005 Evaluation of          09/28/05     NONE          NONE       Bureau of Information Services is
Information Security at the Railroad                                          taking steps to train IT owners to use
Retirement Board (05-11)                                                      SharePoint POAM website. Work
                                                                              continues.

Accuracy and Reliability of GPRA        01/30/06     NONE          NONE       Programs have closed five of the seven
Performance Measures: Timeliness of                                           recommendations. One
Non-Disability Survivor Annuity                                               recommendation has been delayed
Payments (06-03)                                                              due to higher priority project and the
                                                                              other recommendation, a new
                                                                              Operations Analyst was hired which will
                                                                              be briefing and trained.

Review of Compliance with the           04/12/06     NONE          $2,100     Programs staff closed four of the five
Provisions of the Railroad Retirement                                         recommendations. Requirements are
Act Governing the Initial Award of                                            currently in development for
Benefits (06-05)                                                              programming changes to the EDM
                                                                              system.



                                                                   Semiannual Report to the Congress
          44
                                                                       October 1, 2011 ▪ March 31, 2012
Management Statement on Resolved Audit Reports Over 12 Months
      Old with Final Action Pending as of March 31, 2012
                                                      Disallowed Funds to be Put
Report                                       Date       Costs     to Better Use       Reason Action Not Completed
Review of the Termination and              05/24/06     NONE        $200,000     Programming work on a referral system
Suspension of Benefits Paid Under the                                            is pending review.
Railroad Retirement Act (06-06)

Review of Incident Handling and            08/24/06     NONE          NONE       Work continues on training material
Reporting at the Railroad Retirement                                             and progress has been made to the
Board (06-09)                                                                    updating of policies.

Audit of the DAISY/CHICO Component         03/9/07      NONE          NONE       Recent IT changes are pending review
Application of the RRA Benefit Payment                                           as resources were diverted to higher
Major Application System (07-02)                                                 priority projects.

Audit of the State Wage Match Data         03/28/07     NONE          NONE       Coordination is still required with
Transmission Controls (07-04)                                                    outside agencies. Programs
                                                                                 completed and implemented one of the
                                                                                 two remaining recommendations. The
                                                                                 last recommendation is schedule to be
                                                                                 completed in FY12.

Evaluation of the Railroad Retirement      07/30/07     NONE          NONE       New CPO was appointed. Additional
Board’s Privacy Program (07-06)                                                  funding and resources are needed. Of
                                                                                 the 16 recommendations, 13 have
                                                                                 been closed with 3 targeted for
                                                                                 completion during FY12.

Audit of Federal Income Taxes Withheld     07/30/07     NONE          NONE       Coordination is required with another
from Railroad Retirement Annuities                                               org. Five of the six recommendations
(07-07)                                                                          have been closed, with the remaining
                                                                                 one targeted for completion in FY12.

Fiscal Year 2007 Evaluation of             09/27/07     NONE          NONE       Policy and procedures are still being
Information Security at the Railroad                                             developed. Recommendations are
Retirement Board (07-08)                                                         targeted for completion in FY12.

Audit of Controls to Safeguard Sensitive   09/27/07     NONE          NONE       Coordination is required with an
Personally Identifiable Information                                              outside contractor on 1
(07-09)                                                                          recommendation and work plans,
                                                                                 policy and procedures are still being
                                                                                 developed for all other
                                                                                 recommendations. Target date for
                                                                                 completion is FY12.




        Semiannual Report to the Congress                                                                       45

        October 1, 2011 ▪ March 31, 2012
Management Statement on Resolved Audit Reports Over 12 Months
      Old with Final Action Pending as of March 31, 2012
                                                      Disallowed Funds to be Put
Report                                      Date        Costs     to Better Use       Reason Action Not Completed
Fiscal Year 2007 Financial Statement       03/6/08      NONE          NONE       Bureau of Fiscal Operations
Audit Letter to Management (08-01)                                               implemented enhanced controls in
                                                                                 FY10. OIG will reassess once sufficient
                                                                                 time has lapse.

Evaluation of Information Security for     09/26/08     NONE          NONE        Work plans, policy and/or procedures
the RRB’s Financial Interchange Major                                             continue with target completion in FY12
Application – Abstract (08-03)                                                    and one in FY13.

Fiscal Year 2008 Evaluation of             09/26/08     NONE          NONE        Coordination is still required with
Information Security at the RRB (08-05)                                           outside contractor; and additional
                                                                                  documentation is requested by OIG.

Fiscal Year 2008 Financial Statement       03/24/09     NONE         $600,000     Review and updating of
Audit Letter to Management (09-02)                                                documentations along with case
                                                                                  reviews are currently being performed
                                                                                  on remaining recommendations. Work
                                                                                  continues.

Audit of Internal Control Over Accounts    03/31/09     NONE          NONE        Two of the three recommendations
Payable (09-03)                                                                   have been closed, with the remaining
                                                                                  one awaiting the results of a quarterly
                                                                                  review. Work continues.

Audit of the Railroad Medicare Integrity   09/25/09     NONE          NONE        Additional documentations were
Program at Palmetto Government                                                    requested which requires coordination
Benefits Administrators (09-04)                                                   with outside agency.

Audit of the General and Application       09/30/09     NONE          NONE        In the process of developing work
Controls in the Financial Management                                              plans, policy and/or procedures
Major Application System (09-05)                                                  continue with target completion in
                                                                                  FY12.

Fiscal Year 2009 Evaluation of             11/12/09     NONE          NONE        The Bureau of Information Services will
Information Security (10-01)                                                      review and take the necessary
                                                                                  action(s). Target completion in FY12.

Fiscal Year 2009 Financial Statement       03/11/10     NONE          NONE        No change. Awaiting OIG
Audit Letter to Management (10-03)                                                reassessment based on documentation
                                                                                  submitted to OIG for implementation on
                                                                                  last open recommendation. OIG
                                                                                  indicated they will assess the request
                                                                                  for closure during the FY2011 financial
                                                                                  statement audit.


                                                                      Semiannual Report to the Congress
           46
                                                                          October 1, 2011 ▪ March 31, 2012
Management Statement on Resolved Audit Reports Over 12 Months
      Old with Final Action Pending as of March 31, 2012
                                                       Disallowed Funds to be Put
Report                                        Date       Costs     to Better Use       Reason Action Not Completed
Review of Statistical Methods Employed      05/04/10     NONE          NONE       The Bureau of Actuary (BOA) is
in the Financial Interchange                                                      reviewing documentation and will take
Determination (10-06m)                                                            the necessary action(s) and coordinate
                                                                                  with the Bureau of Information Services
                                                                                  for programming services.

Review of the Technical Approach and        05/19/10     NONE          NONE       The Bureau of Actuary is reviewing
Methodology Used to Determine the                                                 documentation and will take the
Annual Financial Interchange Amount                                               necessary action(s).
for the Year Ended September 30, 2008
(10-07m)

Audit of Internal Controls over Medicare    05/21/10     NONE        $3,355,408   Work continues in the development of
Premium Transfers Between the                                                     work plans, policy and/or procedures
Railroad Retirement Board and Centers                                             with target completion in FY12.
for Medicare and Medicaid Services
(10-09)

Review of the Accuracy of the Financial     05/25/10     NONE          NONE       The Bureau of Actuary is reviewing
Interchange as Executed for the Year                                              documentation and will take the
Ended September 30, 2008 (10-10)                                                  necessary action(s).

Audit of Unilateral Disability Freeze       08/12/10     NONE          NONE       Work continues in the development of
Determinations (10-11)                                                            work plans, policy and/or procedures
                                                                                  with target completion in FY12.

Audit of the Account Benefits Ratio         09/29/10     NONE          NONE       The Bureau of Actuary reviewed and
(10-12)                                                                           will take the necessary action(s).

Railroad Medicare Services Billed with      09/30/10     NONE         $92,412     Coordination continues with outside
Dates of Service after the Beneficiaries’                                         organization.
Dates of Death (10-13)
Fiscal Year 2010 Evaluation of              11/05/10     NONE          NONE       Additional documentations requested
Information Security at the Railroad                                              for one recommendation and
Retirement Board - Abstract (11-01)                                               documentation for the remaining will be
                                                                                  submitted to the OIG for
                                                                                  implementation.

Fiscal Year 2010 Financial Statement        1/25/11      NONE          NONE       The Bureau of Fiscal Operations will
Audit Letter to Management (11-03)                                                reassess recommendation during the
                                                                                  FY2012 financial statement audit and
                                                                                  continues to apply procedures
                                                                                  assessed by OIG as properly designed.


         Semiannual Report to the Congress                                                                      47

         October 1, 2011 ▪ March 31, 2012
Management Statement on Resolved Audit Reports Over 12 Months
      Old with Final Action Pending as of March 31, 2012
                                               Disallowed Funds to be Put
Report                                Date       Costs     to Better Use       Reason Action Not Completed
Review of the Railroad Retirement   02/01/11     NONE          NONE       Work continues in the development of
Board's Audit and Compliance                                              work plans, policy and/or procedures
Division (11-04)                                                          with target completion in FY12.




                                                              Semiannual Report to the Congress
         48
                                                                   October 1, 2011 ▪ March 31, 2012
       Appendix G – Reporting Requirements
Act Reference       Inspector General Reporting Requirements              Page(s)
Section 4(a) (2)    Review of Legislation and Regulations                     33
Section 5(a) (1)    Significant Problems, Abuses, and Deficiencies        39 – 40
Section 5(a) (2)    Recommendations With Respect to Significant           39 – 40
                    Problems, Abuses, and Deficiencies
Section 5(a) (3)    Prior Significant Recommendations Not Yet             39 – 40
                    Implemented
Section 5(a) (4)    Matters Referred to Prosecutive Authorities              4, 18
Section 5(a) (5)    Instances Where Information Was Refused                  None
Section 5(a) (6)    List of Audit Reports                                       35
Section 5(a) (7)    Summary of Each Significant Report                      5 – 14
Section 5(a) (8)    Statistical Tables on Management Decisions on               36
                    Questioned Costs
Section 5(a) (9)    Statistical Tables on Management Decisions on               36
                    Recommendations That Funds be Put to Better
                    Use
Section 5(a) (10)   Summary of Each Audit Report Over 6 Months                  15
                    Old for Which No Management Decision Has
                    Been Made
Section 5(a) (11)   Description and Explanation for Any Significant         None
                    Revised Management Decision
Section 5(a) (12)   Information on Any Significant Management                   14
                    Decisions With Which the Inspector General
                    Disagrees



Act Reference       Management Reporting Requirements                     Page(s)
Section 5(b) (1)    Comments Deemed Appropriate                         Transmittal
                                                                             Letter
Section 5(b) (2)    Statistical Table on Final Action on Disallowed             42
                    Costs
Section 5(b) (3)    Statistical Table on Final Action to Put Funds to           43
                    Better Use
Section 5(b) (4)    Statement on Audit Reports With Final Action          44 – 48
                    Pending




Semiannual Report to the Congress                                                     49

October 1, 2011 ▪ March 31, 2012
       Appendix H – Acronyms
Acronym     Explanation

ACD         Audit and Compliance Division
AGA         Association of Government Accountants
APPLE       Application Express system
CY          Calendar Year
FISMA       Federal Information Security Management Act of 2002
FY          Fiscal Year
IIA         Institute of Internal Auditors
IPERA       Improper Payments Elimination and Recovery Act of
            2010
MIRTEL      Medicare Information Recorded, Transmitted, Edited
            and Logged System
NRRIT       National Railroad Retirement Investment Trust
OA          Office of Inspector General for the Railroad
            Retirement Board – Office of Audit
OI          Office of Inspector General for the Railroad
            Retirement Board – Office of Investigations
OIG         Office of Inspector General for the Railroad
            Retirement Board
OMB         Office of Management and Budget
PAR         Performance and Accountability Report
PREH        Payment Rate and Entitlement History System
RRA         Railroad Retirement Act
RRB         Railroad Retirement Board
RRSIA       Railroad Retirement and Survivors’ Improvement Act
            of 2001
RUIA        Railroad Unemployment Insurance Act
SI          Sickness Insurance
UI          Unemployment Insurance




                                            Semiannual Report to the Congress
 50
                                               October 1, 2011 ▪ March 31, 2012
      Appendix I – Legal References

Federal:
Aiding and Abetting in Health Care Fraud – 18 U.S.C. § 1349
Aggravated Identity Theft – 18 U.S.C. § 1028A
American Recovery and Reinvestment Act of 2009 – P.L. 111–5
Conspiracy to Commit Health Care Fraud – 18 U.S.C. § 1347
Dodd-Frank Wall Street Reform and Consumer Protection Act – P.L. 111-203
Failure to Report Information to the RRB – 45 U.S.C. § 231(l)
False Claims Act – 31 U.S.C. §§ 3729 – 3733
False Statements – 18 U.S.C. § 1001, et. seq.
Federal Information Security Management Act of 2002 – 44 U.S.C. § 3531, et. seq.
Filing a False Income Tax Return – 26 U.S.C. § 7206(1)
Health Care Fraud – 18 U.S.C. § 1347
Improper Payments Elimination and Recovery Act of 2010 – P.L. 111-204
Improper Payments Information Act of 2002 – P.L. 107-300
Inspector General Act of 1978, as amended – 5 U.S.C. App. 3
Payment of a Kickback Related to the Health Care Program – 42 U.S.C. § 1320a-7b
Railroad Retirement Act – 45 U.S.C. § 231, et. seq.
Railroad Unemployment Insurance Act – 45 U.S.C. § 351, et. seq.
Railroad Retirement and Survivors’ Improvement Act of 2001 – P.L 107–90
Railroad Retirement Solvency Act of 1983 – P.L. 98–76
Railroad Retirement Tax Act – 26 U.S.C. § 3201
Reports Consolidated Act of 2000 – P.L. 106-531
Social Security Act – 42 U.S.C. § 301, et seq.
Theft of Public Money/Government Funds/Government Property – 18 U.S.C. § 641
Violating the Anti-Kickback Statute – 42 U.S.C. § 1320a-7b
Violation of Assignment Terms – 42 U.S.C. § 1320a-7b

State:
Theft by Deception –18 Pa. Cons. Stat. § 3922
 Semiannual Report to the Congress                                                 51

 October 1, 2011 ▪ March 31, 2012
                         REPORT

        FRAUD, WASTE, AND ABUSE




                Call the OIG Hotline:
                       1-800-772-4258

               E-mail: hotline@oig.rrb.gov

  The OIG cannot ensure confidentiality to persons who provide
information via e-mail. Do not send information by e-mail that you
                 do not want a third party to read.

             Write: RRB, OIG Hotline Officer
                    844 N. Rush Street
              Chicago, Illinois 60611-2092
